<html>
<title> - TROUBLED PARTNER: GROWING AUTHORITARIANISM IN AZERBAIJAN</title>
<body><pre>[Joint House and Senate Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



  113th Congress                              Printed for the use of the
  1st Session           Commission on Security and Cooperation in Europe
  ______________________________________________________________________


                     TROUBLED PARTNER: GROWING AUTHORITARIANISM IN 
                                       AZERBAIJAN

                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                





                             JULY 16, 2013


                            Briefing of the
            Commission on Security and Cooperation in Europe
______________________________________________________________________

                            Washington: 2015












                                     

            Commission on Security and Cooperation in Europe
                     234 Ford House Office Building
                          Washington, DC 20515
                              202-225-1901
                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8be8f8e8eecbe6eae2e7a5e3e4fef8eea5ece4fd">[email&#160;protected]</a>
                          http://www.csce.gov







                      Legislative Branch Commissioners

                                ------                                
             SENATE                                      HOUSE
                          
BENJAMIN L. CARDIN, Maryland,            CHRISTOPHER SMITH, New Jersey, 
  Chairman                                 Co-Chairman
SHELDON WHITEHOUSE, Rhode Island         JOSEPH PITTS, Pennsylvania
TOM UDALL, New Mexico                    ROBERT ADERHOLT, Alabama
JEANNE SHAHEEN, New Hampshire            PHIL GINGREY, Georgia
RICHARD BLUMENTHAL, Connecticut          MICHAEL BURGESS, Texas
ROGER WICKER, Mississippi                ALCEE HASTINGS, Florida
SAXBY CHAMBLISS, Georgia                 LOUISE McINTOSH SLAUGHTER,
JOHN BOOZMAN, Arkansas                     New York
                                         MIKE McINTYRE, North Carolina
                                         STEVE COHEN, Tennessee 


                                  (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 partici- pating States, reflecting the breakup of the Soviet 
Union, Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that 
reflect the views of Members of the Commission and/or its staff, and 
providing details about the activities of the Helsinki process and 
developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delega- 
tions to OSCE meetings. Members of the Commission have regular contact 
with 
parliamentarians, government officials, representatives of non-
governmental organiza- 
tions, and private individuals from participating States. The website 
of the Commission 
is: <www.csce.gov>.

                                 (iii)
  
                                     

        TROUBLED PARTNER: GROWING AUTHORITARIANISM IN AZERBAIJAN

                                  ------------

                                 July 16, 2013

                                   WITNESSES

                                                                   Page
Thomas Melia, Deputy Assistant Secretary for Democracy, U.S. Department 
of State...............................................................
                                                                      3
H.E. Elin Suleymanov. Ambassador, Republic of Azerbaijan...............
                                                                      6
Eldar Namazov, Leader of the ``EL'' Movement, National Council of 
Democratic Forces in Azerbaijan........................................
                                                                      9
Samad Seyidov, Dsc, MP.................................................
                                                                     11
Erkin Gadirli, Chairman of the Assembly, Republican Alternative (ReAl).
                                                                     13
Mariam Lanskoy, Director, Russia and Eurasia, National Endowment for 
Democracy..............................................................
                                                                     15

                                  PARTICIPANTS

Shelly Han, Senior Advisor, Commission on Security and Cooperation in 
Europe.................................................................
                                                                      1
Paul Carter, Senior State Department Adviser, Commission on Security 
and Cooperation in Europe..............................................
                                                                      1

                                  (iv)

 
        TROUBLED PARTNER: GROWING AUTHORITARIANISM IN AZERBAIJAN

                              ------------

                             July 16, 2013

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held from 2:01 to 4:19 p.m. EDT in Capitol Visitor 
Center, Senate Room 201-00, Washington D.C., Shelly Han, Senior 
Adviser, CSCE, presiding.
    Ms. Han. Good afternoon. I'd like to welcome you to a briefing of 
the Commission on Security and Cooperation in Europe on the human 
rights situation in Azerbaijan. We're very pleased to have an 
illustrious and large panel to discuss this issue.
    Both Azerbaijan and the United States are participating states in 
the OSCE. I'm getting some feedback. As such have agreed to the 
principle that comprehensive security and stability requires not only 
physical security and economic development but respect for human rights 
as well.
    We have six speakers today. I'd like to remind them to keep their 
statements succinct as we want to have time, after all the speakers 
have finished, for questions. We will invite the audience to ask 
questions as well. And we have distributed bios for each of the 
speakers. I'll refer you to those instead of reading them out loud 
before each speaker.
    Before we start with our witnesses, I'd like to turn to the 
commission's senior State Department adviser, Dr. Paul Carter, who's 
going to provide a few remarks to help frame our discussion for today.
    Paul.
    Mr. Carter. Thank you, Shelly, for the introduction. As Shelly 
mentioned, I would like to take just a few minutes to provide some 
context and frame today's discussion. I note at the outset that my 
remarks are not an official statement of State Department policy, but 
are offered instead in my capacity as senior adviser to the Helsinki 
Commission.
    The United States is a friend of Azerbaijan and the Azerbaijani 
people. We regard the government of Azerbaijan as a partner with whom 
we share many interests and cooperate on many issues. Azerbaijan is 
located in the strategically important Caucuses region, borders Russia 
and Iran, and is a key gateway along the new Silk Road to Central Asia 
and Afghanistan.
    Azerbaijan established its economic independence soon after the 
collapse of the Soviet Union and now plays an important role in efforts 
to supply Europe with alternative sources of energy.
    The government has supplied contingents of troops to work with us 
in Kosovo, Iraq, and Afghanistan. The country is a significant transit 
corridor for the United States to Afghanistan.
    The United States has worked closely with Azerbaijan, as well as 
Armenia, through the OSCE Minsk Group to find a positive, forward-
looking solution to the Nagorno-Karabakh issue. The government of 
Azerbaijan has taken a positive approach to significant international 
issues, including maintaining good relations with Israel and respecting 
sanctions against Iran.
    These common interests and approaches have fostered good relations 
between the United States and the government of Azerbaijan and have 
received much attention in Washington and Baku.
    But we are not here today to discuss energy, regional security or 
Nagorno-Karabakh. Our purpose today is to discuss a set of issues that 
has received less attention but is no less significant. These issues 
concern the many reports of the Azerbaijani government's decline in 
respect for democratic values and growing authoritarianism.
    Reported trends include: intimidation, arrests and use of force 
against journalists and human rights activists; tough new NGO 
registration requirements; legal restrictions on the Internet, 
including criminalizing online liable and abuse; restrictions on 
freedom of assembly, forceful dispersion of unsanctioned protests, and 
detention of demonstrators; unfair administration of justice, including 
arbitrary arrests and detention; politically motivated imprisonment, 
lack of due process, lengthy pre-trial detention and executive 
interference in the judiciary; the jailing of religious believers; the 
closing, in April, of the Free Thought University; and, since April 
28th, the jamming of Radio Liberty-Radio Free Europe broadcasts.
    Azerbaijan will hold a presidential election in October of this 
year. The OSCE election observation mission's reports on previous 
elections in Azerbaijan found that those elections failed to meet OSCE 
and other international standards in significant ways.
    We are concerned, given the current apparent decline in respect for 
democratic values in Azerbaijan, that the prospects for a free and fair 
presidential election have not improved and, indeed, may have 
significantly declined. In this regard, I note as well that the 
government of Azerbaijan still has not issued an invitation to the OSCE 
to send long and short-term observers to the October election.
    We have a distinguished panel of Azerbaijani and American 
officials, politicians and experts to provide more information on these 
issues and help us to understand their significance.
    While some of our panelists currently are active on the Azerbaijan 
political scene, I would like to stress that the Helsinki Commission 
does not take sides in the upcoming presidential election. Our only 
interest is in supporting a free and fair campaign and election as well 
as a greater respect for human rights and democratic values.
    With that, I would like to return the floor to Shelly, who will 
introduce our first witness.
    Ms. Han. Thanks, Paul. Now, I'd like to turn to Thomas Melia, who's 
the deputy assistant secretary of state in the Bureau of Democracy, 
Human Rights and Labor.
    You have the floor.
    Mr. Melia. Thank you. Thank you, Ms. Han and Dr. Carter and all of 
the commission members and staff for inviting me here to brief about 
the situation in Azerbaijan and its implications for the October 
presidential election.
    Azerbaijan is, as Dr. Carter summarized so well, an important 
partner for the United States. It plays a significant role in advancing 
energy security for our friends and allies, and provides vital support 
as a transportation hub for the international security mission in 
Afghanistan.
    Thus, it is timely and important for us to take a sober look at 
recent Azerbaijani government actions, which raise concerns in advance 
of the October presidential election, and about democratic and civil 
society development more broadly.
    As a friend of Azerbaijan, the United States supports the country's 
long-term stability in a tough neighborhood. In this connection, I want 
to share some of the concerns that we in Washington and our colleagues 
at our embassy in Baku have discussed with senior Azerbaijani 
government officials in recent months.
    We have seen some positive efforts by the government in certain 
important areas affecting human rights situation, such as in combating 
human trafficking and battling against domestic violence, as well as an 
impressive new ASAN, administration services center, in Baku that's 
intended to decrease petty corruption.
    Unfortunately, the political environment for human rights and 
fundamental freedoms more broadly has worsened since at least last 
November, when the Milli Mejlis passed amendments significantly 
increasing fines on participants and organizers of unauthorized 
protests.
    Then, this year alone, restrictive actions have included an 
increase in the number of detained peaceful democracy activists, use of 
water cannons to disperse a peaceful protest in Baku, legislation 
further restricting NGO financing, criminal code amendments that extend 
penalties for defamation and insults to online content, and the closure 
of the facility of the Free Thought University, a non-partisan forum 
established by young activists to develop critical analytical skills 
and independent thinking, which the U.S. government has been proud to 
support in its formative months and for the first couple of years. And 
there's been pressure on independent defense lawyers, resulting in a 
decreasing number of such lawyers prepared to defend individuals 
charged in sensitive political cases.
    U.S. officials consistently highlight the importance of greater 
respect for human rights and fundamental freedoms with Azerbaijani 
government officials at all levels in Baku and Washington. We also 
raise our concerns at OSCE fora, such as the weekly permanent council 
meetings in Vienna, most recently on July 4th.
    To amplify U.S. government concerns, I have traveled to Azerbaijan 
three times since taking my current position in DRL. I was there in 
June 2011, last December, and in April of this year.
    While in Azerbaijan, I've met with government officials at the 
highest levels, as well as democratic reform advocates, such as 
political party and civil society leaders, independent journalists and 
defense lawyers.
    In the most recent visit, in April, to demonstrate solidarity with 
families of incarcerated democracy activists, I also met with Vafa 
Mammadova, the wife of ReAl presidential candidate Ilgar Mammadov, who 
has been in pre-trial detention for more than five months.
    In my meetings, I have urged our partners, our counterparts in the 
government of Azerbaijan to respect universally recognized freedoms 
such as freedom of expression, assembly, and association, and not to 
penalize individuals for attempting to exercise these freedoms. I also 
have emphasized the importance of fostering an environment conducive to 
pluralism among civil society organizations, political parties and 
media outlets as a foundation of true long-term stability.
    While in Baku in mid-April, and inter-agency delegation that I co-
led with USAID Assistant Administration Paige Alexander, we conveyed 
these messages to senior government officials and non-government 
leaders. In addition to the Department of State and USAID, the 
Department of Justice also participated in our inter-agency delegation 
to convey our strong support for strengthening the rule of law.
    In April, I urged Azerbaijani authorities to take four concrete 
steps to enhance political stability during this important election 
year.
    First, to investigate what appeared to be credible reports of 
harassment of lawyers defending journalists and activists, with an eye 
towards ending interference in the work of lawyers who play a pivotal 
role in establishing the rule of law in modern societies.
    Second, to immediately release arrested democracy activists, such 
as Ilgar Mammadov--the European Parliament called in a resolution 
adopted on June 13th for his immediate and unconditional release, and 
we echo that, as well as others who have been incarcerated for having 
exercised their fundamental freedoms.
    Third, to engage in a real dialogue with Azerbaijani civil society, 
including those such as Free Thought University and other 
nongovernmental, nonprofit organizations that are trying to advance 
civic culture and democratic principles, as well with international 
organizations that are present in Azerbaijan to support the country's 
democratic development. An important part of this broader dialogue 
would be to facilitate the timely registration of those NGOs that have 
sought to register with the appropriate authorities.
    Fourth, to create conditions that would be conducive to open public 
debate and the unhindered functioning of political parties during this 
election year. As I said in public and in private in April, in Baku, is 
it up to Azerbaijanis to decide on the future of political developments 
in their country. The interest of the United States is solely in 
assuring that these decisions are reached through democratic, 
transparent processes and institutions.
    The Azerbaijani people will have a choice of leadership in the 
presidential election this coming October. The government of Azerbaijan 
has an opportunity now to take bold steps to improve the political 
environment and to begin establishing the conditions that are necessary 
for a more open, competitive, fair and democratic electoral process, a 
process that doesn't take place just on election day but throughout 
these next several months.
    Let me emphasize here the importance of three freedoms that are 
fundamental to democratic electoral processes and that are also 
discussed in the OSCE ODHIR's July 12th needs assessment mission 
report.
    First is freedom of association. We will look for unhindered 
candidate registration, election campaigns and access to the media. 
Azerbaijanis should be able to join the non-governmental organization, 
political party or political movement of their choice without fear of 
detention or other punitive measures.
    Second, freedom of expression--we will look for an environment 
conducive to an open public dialogue and freedom of the media. 
Azerbaijanis should be able to peacefully express their views, and 
receive and impart information and ideas without fear of detention or 
other obstacles. Similarly, journalists and media outlets should be 
able to do their work without fear of beatings, imprisonment, threats, 
loss of employment or other interference in the dissemination of their 
work.
    Third, and finally, freedom of assembly--we will look for respect 
for freedom of peaceful assembly, including unhindered meetings between 
candidates and voters, and rallies that are accessible by public 
transportation without the risk of detention.
    We urge the government of Azerbaijan to conduct a free and fair 
electoral process as observed by both domestic and international 
monitors. We will look for the ability of domestic monitors to 
organize, gain access to the electoral process and to report their 
observations.
    Timely registration of the Election Monitoring and Democracy Study 
center, EMDS, one of the country's leading independent election 
monitoring organizations would be another positive step. And we welcome 
Foreign Minister Mammadyarov's statement that Azerbaijan intends to 
invite ODIHR and the OSCE Parliamentary Assembly to monitor the October 
election. We're pleased that ODIHR conducted a needs assessment mission 
in June. And we urge the government to issue the requisite formal 
invitations soon.
    Finally, I want to highlight a statement made yesterday by 
Ambassador Morningstar, who said that, quote now, ``During this 
election year, it is particularly important for the Azerbaijani 
government to help guarantee the free flow of information to its 
people.'' In this connection, I urge the government to expeditiously 
investigate the problems recently encountered by RFERL and other 
Azerbaijani language media outlets in broadcasting some of their 
satellite programming to Azerbaijanis.
    In closing, I would like to stress that the United States engages 
in human rights and democracy promotion with Azerbaijan as a friend and 
partner. Here, I would like to cite an Azerbaijani saying, which I'm 
doing with some trepidation: (In Azerbaijani)--which I'm told by my 
experts means a friend with speak with no curtain or veil. Is that a 
reasonable translation? It's just not a reasonable pronunciation 
probably. I should learn some more? All right. I'll learn more by the 
next hearing.
    In my numerous meetings with Azerbaijanis, I've heard directly that 
enhanced respect for universal human rights and fundamental freedoms, 
rule of law and clear steps toward liberalization and democracy, 
including a democratic electoral process are reforms that Azerbaijanis 
widely seek. Such reforms would also strengthen our bilateral 
relationship. Our strongest and most durable relationships around the 
world are with democracies that respect human rights in addition to 
sharing other interests with us.
    Thank you for your attention. I look forward to the remainder of 
the discussion.
    Ms. Han. Thank you, Mr. Melia. I appreciate that.
    Now we're going to switch seats and we'll invite the Ambassador 
Suleymanov to join us and to give your statement. We really appreciate 
that the ambassador is participating today. I think it's important to 
have a full range of voices on this issue and we appreciate his 
participation.
    Mr. Suleymanov. Thank you.
    Ms. Han. Mr. Ambassador, you have the floor.
    Mr. Suleymanov. Thank you very much. Mr. Carter, Ms. Han, thank you 
very much for the opportunity to speak before the U.S. commission, 
Helsinki Commission, and by monitoring the human rights and 
comprehensive security, you have done a great job. We appreciate your 
commitment. Thank you very much. I have submitted a comprehensive 
version of my remarks and I will make just major points so you could 
see.
    The partnership between the United States and Azerbaijan is 
important to each of our countries. It's based on common values and 
common interests, in energy, regional security, and a variety of 
issues. I understand, as Mr. Carter pointed out, shoulder to shoulder 
in Iraq--and we were in Iraq and Kosovo, now we stand in the Balkans.
    But modern reforms have always been an important part of our 
dialogue. In fact, Azerbaijan today is the only country in the South 
Caucuses which co-finances the civil society promotion projects, 50 
percent co-financed with USAID jointly. We always appreciate friendly 
and helpful advice from our friends.
    I take Mr. Carter's statement that today's briefing is a reflection 
of our friendly and strategic partnership and that's why you have a 
briefing on Azerbaijan, not on other countries which had elections 
recently. That's why I'm here representing my government, as a 
reflection of our partnership with you as well.
    I also take at face value your statement that you do not take sides 
in Azerbaijani political system and debate. I look forward to 
maintaining an objective view, which we hope will be maintained 
throughout this discussion. I'm yet to see the full confirmation of 
that.
    I also am talking among friends, as our good friend, Mr. Melia has 
said, in Azerbaijani. You don't want me to speak without any veil with 
my American friends. I could go a little bit too critical, you know 
that. I will not do that. However, I will also speak as a state talk 
among friends.
    I respectfully reject the wrongful claim about going to 
authoritarianism in Azerbaijan. We do not accept that. In fact, make no 
mistake. What is going on in Azerbaijan is a truly independent nation 
with a vibrant political system and a free market economy. What is 
going on is a secular government with diverse and inclusive society, 
where members of every faith can live together with dignity and mutual 
respect. What is going on is prosperity and economic opportunities for 
all our citizens, and I think that should be recognized here today.
    Azerbaijan is an ancient civilization but a young democracy in a 
tough neighborhood. That was mentioned here as well. Just like every 
nation on earth, we are not perfect.
    Consider the obstacles we must overcome. Our country has been 
independent for 22 years since ending of the communist rule for seven 
decades. Now, we suffer from the Armenian occupation of almost 1 
percent--one-fifth of our international recognized territory and 
displacement of about one million people from their homes.
    Since restoring independence, Azerbaijan has been building a free, 
democratic society, where everyone living on our soil can equally and 
fully enjoy human rights and fundamental freedoms regardless of their 
racial, religious and ethnic background.
    Now, I want to make this point very importantly. We believe that 
tolerance, inclusiveness and diversity and gender rights are 
fundamental pillars of a democratic system. They're often overlooked, 
easily dismissed. We often go to the procedural issues, and say, OK. 
This, Azeris got that, that's OK. We don't need to talk about it. But 
that is what forms democracy and that's where democracy fails is 
exactly what we don't have sufficient respect for tolerance, 
inclusiveness and diversity and I think that's a fundamental point I 
want to make. Azerbaijan is very proud of its--In that, I think 
Azerbaijan can actually be an example for many on how to be an 
inclusive society, tolerant and respectful of all its citizens, 
regardless of their background and ethnicity.
    We still have to do a lot of work to eliminate the vestiges of the 
Soviet mentality, to address our challenges, among them fighting 
corruption and building democratic institutions. That's obvious. But 
our progress is remarkable. It is especially remarkable if you look at 
the neighborhood we live. I mean, that's an important factor.
    Now, before I go any further, I want to talk about the elephant in 
the room. We could try to dismiss it. We could not mention it. But the 
major and the greatest and the gravest challenge facing the citizens of 
the Republic of Azerbaijan is the ongoing occupation, forceful 
displacement of one million of my people. We could talk about all the 
rights of our people. We could talk about all we want, but we cannot 
ignore the fact that one million of Azerbaijanis--children, women and 
men--have been living outside their homes, forcefully displaced, having 
no rights for reproductive health, gender, voting, health care, and 
education. I think that's very important.
    In that spirit, I am actually somewhat surprised by the bizarre 
move by our colleagues from the Armenian Assembly of America who 
decided to submit their testimony here.
    First of all, I thought it was a discussion on Azerbaijan. I 
haven't seen that testimony, but I believe that it addresses three very 
important issues. I hope it addresses the fact that the Armenian 
government today grossly violates the rights of Azerbaijani displaced 
people. I hope they submitted it because there was no event on Armenian 
elections, which are very problematic, and it addresses the fact that 
presidential candidates get shot in Armenia before the elections. Since 
you didn't have the event on that, I hope our Armenian friends actually 
mentioned that in their own submission.
    I do hope that they express concern with their government's 
treatment of Moldovan human rights commissioner Mrs. Aurelia Grigoriu, 
who was kidnapped and held hostage in the Republic of Armenia by the 
government of Armenia. I hope those things are outlined in that 
particular statement. I think that's a welcome one. If it is aimed at 
bashing Azerbaijan, then I would take an issue with Mr. Carter's 
statement about objectivity of this event today.
    In three months, the citizens of Azerbaijan will exercise their 
constitutional and civic right to elect the president of the republic 
to lead the nation over the next five years. We will do everything 
possible to hold democratic elections that the Azerbaijani people 
deserve and expect because the future of independent Azerbaijan is and 
should be decided and determined only by our citizens living in 
Azerbaijan, not in foreign capitals, not in neighboring capitals. 
That's a very important point.
    For those Azerbaijani citizens who are living abroad, our 
diplomatic missions, including one which I lead, will be open and 
providing an opportunity to vote. And I encourage everybody to register 
with our consulate and exercise their right and civic duty to vote for 
the president of the Republican of Azerbaijan once the election 
campaign begins.
    Since adopting our constitution in 1995, Azerbaijan has been 
creating the mechanism to protect human rights, extensive democracy and 
ensure rule of law. We benefit from our ever expanding participation in 
the European community and strong support from the United States and 
other members of the worldwide community of democratic societies.
    We joined the Council of Europe in 2001. It's an important step. By 
2014, Azerbaijan will assume for the first time the chairmanship of the 
Committee of the Ministers Council of Europe.
    To our national program to raise awareness of the protection of 
human rights, we're building institutions that gives life to a free 
society. There are five issues on that, five building blocks for 
democracy.
    For our democracy, first, a fully functioning, independent 
judiciary is not a choice but a prerogative. It's an imperative. In the 
very short term of time, the national judiciary and legal system has 
been organized subject to democratic principles. We are working very 
hard and include the World Bank and other international institutions to 
build a depoliticized judicial system which is independent of any 
interference.
    Second, freedom of expression, which is the lifeblood of democracy. 
In Azerbaijan today, there are about 5,000 media outlets affiliated to 
a wide range of private organizations and individuals. Some of them are 
here. There are about 40 daily and 200 weekly and monthly newspapers. 
There are 50 information agencies.
    Our state fund for support of mass media supports newspapers and 
other outlets, including opposition papers without interfering with 
their content. In 2010, under the program initiated by President 
Muhavaliv, around $6.4 million have been allocated to strengthening the 
social protection for journalists, including housing assistance.
    President's fund for support of media actually allocates money to 
the very media which spends most of the time criticizing the 
government. We have a fund which does not interfere with the work of 
journalists.
    Freedom of expression includes freedom of Internet. In Azerbaijan, 
there's absolutely unrestricted Internet access. About 65 percent of 
the Azerbaijani population have access to Internet. We will increase 
that number. We're working very hard and we appreciate the help from 
our American friends on working with us to make it about 100 percent 
connectivity. Of course, that is an ambitious goal and we'll try to as 
much.
    Still, democracy requests a vibrant civil society. Within the last 
five years, the council of state support to NGOs has allocated more 
than $14 million to 1,800 projects. Azerbaijan is a lively--and the 
political discourse is very diverse with many voices, including the 
opposition, and much of that support also goes to the opposition 
groups.
    Fourth, a strong democracy required educated citizens. Our top 
priority is developing our human capital. What happens is Azerbaijan is 
launching additional reforms in education. I think everybody who 
watches Azerbaijan closely knows that. And we will also provide full 
government support for our students studying abroad, about 5,000 
Azerbaijani students studying abroad in leading institutions 
internationally.
    Fifth, and I think this is the most visible and the most--not a 
civil progress been in combating corruption. I appreciate Mr. Melia 
mentioning the ASAN service, which has basically revolutionized and 
opened access of Azerbaijani citizens to their government services.
    We're fighting corruption. In fact, one of the interesting things 
you would look at is that Transparency International, with which we 
often disagree and which is mostly very critical of many governments 
around the world, has noticed an increase of corruption instances 
throughout the world and decrease of such in Azerbaijan. I think that 
recognition should be mentioned here as well.
    Prosperity of the Azerbaijani people is increasing. Azerbaijan 
today accounts for 80 percent, 80 percent of South Caucuses economy. 
And, you know, the poverty level has came down from 49 percent to 6 
percent. We are facing a population whose welfare is increasing on a 
regular basis.
    Once again, before I complete my words, I would like to point out 
that the greatest support the United States government can do to for 
our people is to help us, us and Armenians to come at the end of the 
day to a solution and a fair settlement of the Armenia-Azerbaijan 
conflict so finally our people have the ability to fully enjoy the 
rights, which are very basic rights. We're not talking about freedom of 
assembly even. We're talking rights to live and rights to basically 
enjoy their lives as human beings in dignity.
    With that, I think the one very important step would be, very 
obviously, to encourage the United States to appoint a full-time 
negotiator, which is the United States is lacking. And while I 
appreciate the statements made by the U.S. government at the OSCE 
Council in Vienna, I would be also very appreciative if equal attention 
would be paid to the mistreatment of Azerbaijani citizens and made an 
effort to resolve the Armenia-Azerbaijan conflict.
    In closing, let me welcome all the representatives of Azerbaijan 
who are here, both from the government and from the opposition. You 
could see that we have a vibrant society. You read about the activities 
of our different political groups from the media, which is actually 
freely accessible to you. Our people have events, which are held 
without much interference. And we appreciate American support to 
Azerbaijan in general and our working together with Americans on 
promoting democracy and reforms in our part of the world.
    We appreciate your support and thank you for your attention. And I 
will be remaining here for the remainder of the discussion. Thank you 
very much.
    Ms. Han. Thank you very much, Mr. Ambassador. I appreciate your 
remarks. We do look forward to have you back up on the panel after this 
next panel.
    If I could invite Mr. Namazov, Mr. Gadirli, Dr. Lanskoy, and Mr. 
Seyidov. Yeah. Thank you.
    OK. We'd like to start with Mr. Namazov, if you could start off the 
panel. And he'll be using our interpreter to make his statement. Thank 
you.
    Mr. Namazov. Thank you for inviting me to this event. I represent 
here the National Council of Democratic Forces in Azerbaijan and I 
speak on their behalf. I have travelled 6,000 miles here to speak about 
the realities of Azerbaijan, which makes less than one minute for a 
mile. Yeah. For one mile. Yeah. Less than one minute for a mile.
    I encourage you to look into the documents that I'm going to 
distribute. These are the statements from our council and information 
we'd like to disperse. For the first time since Azerbaijan regained its 
independence, leading Azerbaijani political party leaders and delegates 
here, representatives of civil society, media captains, youth have 
united together in the eve of presidential elections creating the 
national council and they have agreed to go to this election with a 
single candidate.
    Our council has prepared a special declaration, a paper discussing 
the next two years that will happen if we win the elections, that 
discusses the major reforms, legal and democratic reforms that will 
take during the two years.
    Another document that we have adopted and it will be also 
distributed to you is our request or is our petition to law enforcement 
agencies in Azerbaijan that discusses the situation of the president 
that foreign media has written about, about allegations about various 
properties around the world that are significant corruption cases that 
we want to be investigated. These are serious facts that we have asked 
the central election commission, public prosecutor's office, Supreme 
Court to investigate because these are important allegations that need 
to be investigated, which are about the president. We will try to get 
concrete responses from these institutions why they have not done 
anything so far to start those investigations.
    Another important document that I will distribute today is a letter 
written from jail. This is a letter written by arrested members of NIDA 
youth movement who are in jail now. And just yesterday, two more 
members of the youth groups, Ulvi Hasanli and Megedli have been 
arrested while they were helping us to prepare documents for here.
    Out of 129 member of the national council, 12 are in jail now. And, 
of course, we demand the release of all political prisoners. The names 
were mentioned today, Ilgar Mammadov, Yadigar Sadiqov, and others who 
are in jail now should all be released.
    The spread of corruption and lack of social justice leads to the 
situation when without intervention of political parties in Azerbaijan, 
people in rural areas, in districts rise against the corrupt officials.
    All this social crisis in Azerbaijan and political-social crisis 
shows that Azerbaijan needs to have reforms, needs to have significant 
changes. If democratic elections are not held in Azerbaijan, chaos and 
confrontations wait Azerbaijan, which will significantly damage its 
relationship with partners and with its neighbors.
    At the end of my presentation, I would like to pass to you three 
important messages of our national council to you.
    First is to exert appropriate pressure on Azerbaijani government 
officials who have violated freedom of rights similar to that of the 
Magnitsky Act. To liberalize pre-election situation, all political 
prisoners should be released, the right of freedom, right of assembly, 
freedom of expression have to be restored. And there should be no 
pressure on independent media and their outlets. The electoral 
legislation has to be reformed based on recommendations from ODIHR and 
OSCE and Venice Commission, Council of Europe.
    We want the provision by independent institute, provision of exit 
polls in Azerbaijan from independent institutions because all previous 
elections in Azerbaijan have been falsified and they did not meet 
international standards. The democratic elections need to be born in 
Azerbaijan. They're not only an issue related to the people of 
Azerbaijan but also to the security and stability of Azerbaijan.
    I hope our American partners understand the same way as we do that 
to transition to a democratic government is necessary. Thank you so 
much.
    Ms. Han. Thank very much, Mr. Namazov. I appreciate that. I think 
you got more miles out of that statement than you originally planned.
    Dr. Seyidov, we welcome your participation.
    Mr. Seyidov. Thank you very much for having me today. I think that 
this is really very important to take part in this briefing and to 
discuss issues which are related to my country.
    Of course, my ambassador made my life so easy. He actually 
presented facts which I thought to present. And that's why I will try 
to cover much more with the situation with human rights, with the 
geopolitical situation in Azerbaijan.
    Let me start with my disagreement with Mr. Carter's statement that 
today we are here and today we are not going to discuss the Nagorno-
Karabakh issue, and we are thinking only about human rights and we 
should think about human rights.
    Nagorno-Karabakh is a problem of human rights. That's a great 
violation of the human rights of Azerbaijanis. One million 
approximately Azerbaijanis have been violated and ethnically cleansed 
from Azerbaijan. And to think and discuss a human rights issue in the 
Azerbaijani region without the Nagorno-Karabakh issue, that's 
impossible. We should take into account this reality.
    The second remark, my disagreement with the title of today's 
briefing, troubled partner--``Troubled partners and growing 
authoritarianism in Azerbaijan.'' Trouble partner, how can it be 
possible? We as a state, as Azerbaijan, opened all our facilities for 
America exactly after 9/11. We're today doing our best for the 
coalition and our soldiers shoulder to shoulder fighting in 
Afghanistan, in Iraq and Kosovo, as you said. We are doing our best not 
only for our country, for the region, but for Europe and the United 
States of America.
    That's why I think that you lost the focus. The real troubled 
partner is not far from us, the country which created the occupation of 
my land, the country which ethnically cleansed 20 percent of my 
territory, a country where the real human rights is really dangerous.
    My second remark is about growing authoritarianism in Azerbaijan. 
You know, Mr. Namazov just said that today we can see in Azerbaijan 
that democratic forces try to unite and this is very good and unique 
opportunity to see in Azerbaijan, but who created this environment. 
When our foreign visitors, guests came to Azerbaijan, already you have 
mentioned that your opposition is very fragile. Your opposition is 
really very weak. Today, opposition is sitting together with us and 
talking about the future of Azerbaijan. Is it authoritarian regime? Or 
maybe we can say that just a few days ago the leading chief of the 
very, very radical oppositional newspaper became a member of the board 
which has been created by after the congress, journalist congress in 
Azerbaijan. And this is the real sign of democratization, not the sign 
of authoritarianism.
    Or maybe we should talk about the role of the woman in Azerbaijan. 
I can speak about other things and today, I think, my ambassador is 
absolutely right. What we can see in Azerbaijan, that's a growing 
economy, growing our relationships with neighboring countries, and 
growing the role of Azerbaijan in our region. Maybe because of that and 
exactly because of that today we can see that pressure from different 
regions, from different countries are growing. Not authoritarianism is 
growing in Azerbaijan. I'm from parliament, I can't say, but attempts 
to destabilize situation in Azerbaijan is growing.
    Today, Azerbaijan maybe is a last state in our region which 
defending Western values and cooperation with Europe and United States 
of America. We have seen what had happened to Georgia, to Ukraine, what 
kind of processes is going on in Russian Federation. And I think today 
so strong pressure to Azerbaijan exactly because of our desire to be 
together with the rest of the democratic and civilized world.
    The president of Azerbaijan is a leader who is doing his best for 
integration with Europe and with the United States of America. And 
that's why I'm so proud that today my government said yes to Trans-
Anatolian pipeline, which bring closer Italy, Albania, Greece, Turkey, 
Georgia to Europe and to United States of America.
    Of course, we are not so perfect, but we are doing our best. We 
became a member of the Council of Europe, where 47 countries are 
existing. Next year, we will chair the Council of Europe. At the same 
time, we are very active in the Islamic Conference. We have the special 
attitudes concerning cooperation between East and West. From this point 
of view important to take into account that this kind of discussions, 
when opposition and people who are not agree with you can see express 
their views much more important than use Molotov cocktail against the 
government, against the forces in Azerbaijan. I ask my colleagues and 
friends to understand that democracy is a rule of law and human rights 
that's a discussions, exchange of views, not use of force.
    Today, human rights is a very, very special issue for Azerbaijan. 
Azerbaijan has joined to the European Charter of the Human Rights. 
We're under jurisdiction of the European Court for Human Rights. You 
can compare the number of appeals from Azerbaijan and from countries 
who are member of the European Union: United Kingdom, Romania, 
Bulgaria, France, and other countries. And you can see that the number 
of appeals from Azerbaijan much more less than from these countries.
    You can compare the number of prisoners within the prisons in 
Azerbaijan, in Georgia, in France, in United Kingdom, and you will see 
that the number of prisoners within the prison in Azerbaijan, according 
the European standards, and especially taking into account the last 
pardoning decrees and amnesties which adopted by the parliament.
    You can see that day by day the number of women within the 
parliament and within the municipalities are growing. From this point 
of view, the last municipality elections and parliamentary elections 
gave us possibility to have approximately 20 percent members of the 
woman at the parliament and more than 30 percent women at the 
municipalities.
    Today, Azerbaijan is doing its best for human rights and for 
democracy, rule of law not only within the country, but taking in all 
programs, in all initiatives. My president just recently has signed the 
special action plan to improve human rights situation in Azerbaijan.
    As you know, we are coming to the chair position at the Council of 
Europe at the middle of the 2014. An action plan on the discussion 
together with Council of Europe concerning human rights development in 
Azerbaijan. That's impossible to change everything overnight. Only 20 
years, we are an independent country.
    United States of America 237 years is independent, but even in 
United States of America we can see some problematic issues.
    The most important thing, the political will of the country to 
change, to see, new developments, new reforms, and government of 
Azerbaijan is keen to provide these reforms.
    We have sent an invitation to the Council of Europe to see 
observation mission for presidential elections here, this year, in 
October. 32 members from the Council of Europe will be in Azerbaijan 
for pre-election mission and for election mission.
    The same invitation will be sent from Azerbaijan to other 
international organizations. But what we don't want to see and what we 
have seen during the last parliamentary elections and presidential 
elections in Azerbaijan, previously prepared opinion, previously 
prepared papers about the results of the elections in Azerbaijan, about 
the situation in Azerbaijan.
    Today, my country is struggle for democratization, human rights, 
and rule of law. The war, the struggle is going on. We, as Azerbaijani 
representatives, we are doing all our best being surrounding with very 
difficult neighbors. Could you imagine from one side so great, so big, 
so influential Russian Federation? From another side, fundamentalistic 
and fundamentalistic tensions and Iran. Twenty percent of territories 
under occupation. Situation in Georgia, which is not so understandable. 
Taking into account all these difficulties, Azerbaijani leadership is 
insisting to be together with the rest of the civilized world and to do 
its best.
    Thank you very much.
    Ms. Han. Thank you very much for that.
    Next, I'd like to call on Mr. Gadirli, if you can. I'm sorry I'm 
not saying anybody's title, so I apologize for that. You are the 
representative of the ReAl network. I'll rely on you to explain your 
affiliation. Thanks.
    Mr. Gadirli. Thank you very much. I also would like to express my 
personal gratitude for having been invited for such an event.
    I sincerely welcome our Azerbaijani friends, Mr. Ambassador. It's 
very rare opportunity for us to sit together in our own country. I'm 
bit confused because I had another idea of what I'm going to say before 
coming here. Now, listening to the previous presentation, I've a bit 
changed my mind.
    I would like to start with a quote. The quote goes like this. ``Do 
you know where Azerbaijan is? Well, today, they came in a group of very 
interesting and intelligent gentlemen who are coming from Azerbaijan. I 
couldn't have time to find until they begun where they came from, but I 
find this out immediately, that I was talking to men who talk exactly 
the same language that I did in respect of ideas, in respect of 
conceptions of liberty, in respect of conceptions of justice and 
rights.'' End of quote.
    These words belong to the president of the United States Woodrow 
Wilson. Actually wrote these words after meeting with Azerbaijani 
delegation to Paris Peace Conference in 1919.
    That was a time when Azerbaijan established its first republic. Was 
not only the first in Azerbaijani history, but in the history of entire 
Muslim world and the Turk people, in fact, the first republic in that 
geography.
    At that time, the population was very poor, illiterate, only 64 
people held university degree. The war with Armenia over Karabakh was 
still ongoing. Azerbaijan was threatened by its neighbors, yet the 
people was capable of effectively establishing a republic without any 
foreign aid.
    The strategies then was to seek an international recognition of 
that republic. Now, today, we are independent and proudly so. Never in 
our history our society was as rich as it is today. Our population is 
literate. The level of literacy is well above 90 percent. But there're 
certain differences that I would like to talk about.
    When we had the first republic Azerbaijan was exporting ideas to 
some of its neighbors such as Persia, as it was then called, and 
Ottoman Empire, ideas out of which, among many other things, a Turkish 
Republic evolved. It was Azerbaijan from where ideas of Turkishness, 
pantropism, and republicanism went to Turkey, not the other way around.
    Now, today, we're a country which jams radios, which bans 
opposition to appear on the television, which effectively shuns other 
sorts of media who have nationwide broadcast. Not only opposition, but 
different thinking intellectuals are not allowed to appear on 
television.
    When we had the republic, in the second decade of the 20th century, 
within two years that the republic was alive, the government changed 
four times. We have five governmental coalition. Well, to some this is 
a sign of political instability. Yes, there is some portion of truth in 
that. But it also signifies the culture of negotiation, coordination, 
and cooperation that Azerbaijan had at that time.
    Today, that is exactly what our society is like. Today, we have a 
society ruled by one family, effectively, since 1969, with a short 
break in the '80s. When we had the first republic, we had a prime 
minister, who after his resignation wrote a letter to his father asking 
for a financial help because he was short of money after resignation. 
Today, we read from various sources reports about billions of wealth 
owned by ruling elite.
    Now, all that is possible today because we don't have a republic. 
This is the strategy that--and the challenge that our nation is facing. 
I join and I don't want just to reiterate, but I want to undersign what 
Mr. Ambassador and other--Samad Seyidov that said about the Karabakh 
issue. Our nation stands united, so there is no fundamental 
disagreement on that.
    There're few disagreements about details, but in general--so that 
has nothing to do with being in opposition in Azerbaijan, even though 
we sometimes see it from the government side that opposition is either 
trying to destabilize the situation or sell out the country order.
    I represent here Republican Alternative. That it's opposition 
movement. We are on the way to transforming our movement into a 
political party. The chairman of our board is in jail now. He was 
arrested on February 4, still kept in custody. The charges he's facing 
with are quite serious. He made up in jail for another 12 years. But in 
fact, what he was arrested for? Exactly because he was advocating for 
republican ideals, because he was advocating for Euro-Atlantic 
integration, the deep integration, the true integration.
    The republicanism--I know that this word can confuse American 
audiences, but I'm speaking not in terms of political parties, but in 
terms of the trend, the form of the government--can be organized in 
various forms. When we had the first republic, the people then had a 
vision and knowledge and the courage and very difficult environment 
compared to which we have today, but even in a harder situation, to 
create a parliamentary form of government. They were aware of a 
presidential form. They knew that--the system in America, how it was 
organized. But they had a deeper vision about the future of the 
country. They somehow intuitively knew that presidential system 
wouldn't fit our country.
    In fact, if you study, whoever tried to copy the American system of 
the government--take Latin America, post-Soviet countries, African 
countries, whoever tried to have a strong president as a head of 
executive failed in democracy building.
    That fact is quite telling. So another challenge in front of us is 
to transform our country into a proper parliamentary republic which 
will reflect the diversity of the country, where political parties can 
cooperate, negotiate, establish coalitions. What we don't have is a 
republic. We will pursue this goal. We will continue to follow our 
strategy because it is much more than simply changing the government.
    If you simply change the people, I mean the officials, that 
wouldn't work. The deeper understanding is required. A country must be 
radically reformed and transformed.
    But anyway, I better stop here because I assume there will be 
questions and I will have more time on detail. Thank you.
    Ms. Han. Thank you very much, Mr. Gadirli.
    Now, I'd like to turn to our final witness, Dr. Miriam Lanskoy. 
She's the director for Russia and Eurasia at the National Endowment for 
Democracy.
    Ms. Lanskoy. I'm very grateful to the Helsinki Commission for 
holding this briefing and for giving me the opportunity to speak about 
democracy and human rights in Azerbaijan.
    The National Endowment for Democracy is a private, nonprofit 
foundation dedicated to the growth and strengthening of democratic 
institutions around the world. The NED has been working in Azerbaijan 
since the mid 1990s and has supported various projects there.
    Over the last decade, freedom in Azerbaijan has declined 
substantially. The Nations in Transit Index shows a deep decline in 
every category of governance and the combined score going from 5.6 to 
6.6. President Ilham Aliyev, who came to power in 2003, is now seeking 
a third term as president. This was forbidden by the constitution until 
2009, when term limits were removed, opening the way to any number of 
future terms as president.
    The early months of 2013 saw an unexpected increase in social 
unrest. And this was followed by a harsh government crackdown. There 
were various protests, some in Baku and some in the regions, some of 
which became violent. There were peaceful rallies in Baku that were 
violently dispersed by the police, who used water cannons and rubber 
bullets. Dozens of peaceful protesters were fined and sentenced to 
short periods of administrative detention. I provide a lot more detail 
in my written comments, but here, in the interest of time, I'm going to 
focus on a few things that I consider being the most pressing issues.
    Human Rights Watch reports 16 critics of the government who have 
been arrested in the first six months of 2013. Two prominent opposition 
figures, Tofiq Yaqublu of Musavat and Ilgar Mammadov of ReAl have 
already--already been mentioned here and they have already been in jail 
for six months waiting trial on false charges of having instigated 
civil unrest in Ismayilli. Seven members of the youth movement NIDA 
have been in jail since March. And four of them are considered Amnesty 
International prisoners of conscience.
    Human Rights Watch has profiled other cases of opposition youth 
activists who apparently had drugs planted on them by police. Some of 
them are religious activists as well.
    In the realm of media, freedom of information has also declined in 
the first half of 2013. The government has, for a long time, controlled 
broadcast media and most newspapers, but now it is trying to establish 
greater control on the Internet and in satellite broadcasts.
    June 2013 amendments to the criminal code made defamation on the 
Internet a criminal offense, making it possible to make criminal cases 
against online activists. Since April 2013, signals carrying Azeri 
language news produced by Radio Free Europe have been jammed.
    There's also been problems with respect to NGOs. A new amendment in 
the NGO law increases existing sanctions against unregistered NGO 
activity in conjunction with arbitrary denial of registration, which 
places activists in an impossible position. They cannot work without 
registration, but they're arbitrarily denied registration. The case of 
EMDS has already been mentioned.
    The youth organization OL!, which ran a highly successful free 
thought university, was shut down suddenly this spring. Several 
articles and statements smearing the work of NDI and NED appeared in 
March.
    Freedom of religion is another area of steep decline this year. The 
U.S. Commission for International Religious Freedom has downgraded 
Azerbaijan to a tier two country. The commission focused its criticism 
on a 2009 law on religion, which led to numerous raids, detentions, and 
arrests.
    I'd like to turn now to the pre-election environment which is 
probably of greatest interest to the Commission. In a July 2nd speech, 
President Aliyev seemed to encourage the police to abuse the 
opposition. He recalled that during past elections, international 
organization sought investigations into the conduct of police, to which 
he said, ``I said back then and I want to say again now that not a 
single policemen will be punished.'' President Aliyev went on to 
characterize his political opponents as traitors, betrayers, slave-
minded people.
    Opposition activists are harassed, detained, barred from travel. 
There's been no sanctioned rally in the center of Baku since 2006. And 
unsanctioned rallies are broken up violently.
    Despite this deepening authoritarianism, there has been a very 
significant development. In May, the National Council was formed. It is 
an umbrella organization that brings together opposition, politicians, 
NGOs, scholars, youth, bloggers, and even former government officials. 
In June, the National Council resolved to support a single presidential 
candidate from all the opposition forces. They chose Rustam 
Ibragimbekov, an Oscar-winning director and screenwriter who is revered 
in Azerbaijan.
    The National Council has outlined an ambitious program for 
constitutional reform that would reduce the powers of the president, 
institute checks and balances, and restore basic freedoms.
    Going into this election period, which is likely to be more 
competitive and more volatile than recent elections, ensuring 
independent and credible vote monitoring is of the outmost importance. 
Many contentious issues, including the registration of Mr. Ibragimbekov 
or other opposition candidates as they come forth and their ability to 
campaign are likely to require international attention.
    Domestic election monitoring organization EMDS remains 
unregistered. Domestic monitors are very vulnerable in the absence of a 
large and comprehensive OSCE mission. As has already been observed 
here, there still has not been an official invitation for OSCE 
monitoring.
    A preliminary ODIHR report indicates a request for 30 long-term and 
280 short-term observers. It would be better if this mission could be 
larger. By comparison, there were 600 observers in Azerbaijan in 2003 
in the presidential elections and there were 400 in Georgia last year. 
And Georgia has, by far, fewer polling stations.
    In closing, I'm very grateful to the Helsinki Commission for 
convening this briefing. It comes at a very important time. I hope that 
you will remain equally engaged in the coming months and will continue 
to call attention to the cases of political prisoners and the ability 
of civil society to do their work without harassment and intimidation. 
Thank you.
    Ms. Han. Thank you, Dr. Lanskoy.
    I'd like to bring all of our panelists back up, if you don't mind. 
Mr. Melia, you'll be joining us over here. We're going to squeeze 
everyone down.
    OK. I think we're all set and I'm going to turn to Paul for the 
first--to start us off, ask a couple of questions, and then we'll turn 
to audience.
    Mr. Carter. OK. I want to give the audience time here to ask 
questions, so I won't take much. Mr. Ambassador, thank you very much 
for your remarks. I noted when you said that the government of 
Azerbaijan would do all that it could to ensure a democratic election, 
I thought that was a very good point. Can you assure the Helsinki 
Commission that Mr. Rustam Ibragimbekov will be allowed to return to 
Azerbaijan without the threat of arrest and to conduct a campaign for 
the presidency free of harassment by the government?
    Mr. Suleymanov. Mr. Carter, thank you very much for your question. 
Well, I don't know of any obstacles for Mr. Ibragimbekov to come back 
to Azerbaijan when he wishes. I genuinely believe that a person who 
wants to run for a leadership position in Azerbaijan needs, first of 
all, to be in Azerbaijan and perhaps to be citizen of Azerbaijan. That 
would be helpful.
    Azerbaijan has laws which have been in place for a long time. It's 
not a new procedure. If Mr. Ibragimbekov actually--his candidacy and 
nomination complies--first of all, he has to be nominated by a number--
there're special rules. There has to be 40,000 people registered voters 
submitting the request. They have to come for at least from 60 
precincts and he has to basically be registered by the Central 
Electoral Commission in compliance with Azerbaijani laws.
    Those laws, as a matter of fact, require no commitment to any other 
foreign nation. As it stands now, it is my understanding that Mr. 
Ibragimbekov is a citizen of the Russian Federation. While we do enjoy 
our friendly relationships with the citizens of Russian Federation, we 
do try to elect people in our country who are citizens of Azerbaijan 
only. So should his procedures be done, that's up to him. We don't 
interfere with his decision-making. And should he comply with all the 
requirements for a presidential candidate, I don't know of any reason 
not to do that.
    But now, let me tell you something. I, as a representative of 
Azerbaijan Republic and as a diplomat here, I have no power and no 
direct influence over the Central Electoral Commission. So to make a 
commitment on behalf of a body I do not control, I cannot. I can ask 
you, for instance, can you assure that Section 907, which is obviously 
a counterproductive part of the legislation, will be repealed? You 
agree with me that that's wrong, but you do not have power over 
parliament to commit to that.
    So I think we're in equal situation. We'll do what we can, but he 
has to comply with the Central Election Committee requirements.
    Ms. Han. Mr. Melia, I wondered if I could ask you to just give us 
some comments on this pre-election period is really often the most 
important part of an election because on polling day, we've seen in 
many places, the outcome is pretty much already predetermined because 
of who's on the ballot and who gets registered and who's--so if you can 
talk about what you would like to see happen in Azerbaijan and maybe 
how the U.S. is engaging with Azerbaijan on this issue in this 
important period.
    Mr. Melia. Sure. Well, we're not treating Azerbaijan differently 
than we would treat any other country. The kinds of assessment that we 
do, the reports that we write, such in the Annual Human Rights report, 
we apply the same standards globally and conducting consistent 
assessment, as do, I think, many of the NGOs and think tanks that 
describe political processes and so on.
    You very correctly say--and I think I touched on this in my initial 
statement, that an election doesn't just happen on voting day or vote 
counting day. So an overall assessment of the electoral process 
naturally includes what happens in the 90 days preceding an election. 
And we're about at--all of the precise data hasn't been announced yet--
we're probably about 90 days out from the election right now.
    The opportunity for candidates and voters to meet and assemble and 
talk about ideas and to have some access to the broadcast media and 
other opportunities to make their case to the voters, all of that will 
be part of what we and international monitors from other countries will 
be looking at.
    As I said, release of Mr. Mammadov from prison--he's been in 
pretrial detention for more than five months now--would be an important 
step forward. He's an announced presidential candidate. He should have 
a chance to talk to voters. So there's a number of things--I laid them 
out in my testimony--that I think would be good steps in the right 
direction to live up to the aspirations and commitments that I think 
the ambassador conveyed and I think Azerbaijan is quite capable of.
    Ms. Han. Thank you very much. I wanted to have two follow up quick 
questions before we move on from--if Mr. Namazov would like to talk 
about the status of Mr. Ibragimbekov and how--perhaps what the plans 
are from your party's standpoint.
    Mr. Gadirli, given that Mr. Mammadov is in prison, what options do 
you have for his candidacy? Thanks.
    Mr. Namazov. Thank you. I want to refer to previous question about 
Mr. Ibragimbekov ability to travel to Azerbaijan and be registered as a 
candidate. With this question, I want to mention that Mr. Ibragimbekov 
has, in recent times, twice had problems in both entering and exiting 
Azerbaijan at the border. State officials created troubles for him, 
including border control and other agencies. Each time, I had to go to 
the airport personally to help him out. And during this time, he was 
held at the airport for several hours. And each time the border 
officials that were mentioning to him personally that because he's 
speaking against president, he's criticizing president, they're giving 
him this trouble.
    At that time Mr. Ibragimbekov was not our single candidate. He was 
just an intellectual or a filmmaker.
    Regarding the registration of him as a candidate, I want to 
emphasize that our lawyers are working on his registration. According 
to them, there're no legal obstacles that can prevent him to be 
registered as a candidate. They will be working definitely on 
collecting those signatures from the regions and et cetera, but even 
prior to that, already, there're statements made from the government, 
members of the ruling party, who openly say that he cannot be 
registered as a candidate. This is before the elections.
    We hope that our candidate will be registered, but if he's not 
going to be registered, then legitimacy of these elections will be 
questioned. And we as National Council will organize rallies to protect 
his rights. But we wish that the government will change its mind and 
register him as a candidate and not create extra problems for 
themselves.
    Ms. Han. OK. Mr. Gadirli, if you could answer, and then the 
ambassador wanted to say something.
    Mr. Suleymanov. Yes, I want to say something.
    Ms. Han. OK.
    Mr. Gadirli. Thank you. Now, Ilgar Mammadov situation, as I said, 
he is in pretrial detention now, since February 4. No investigation 
goes on. Actually, he was not visited by investigators since then, so 
he's just kept there. That's quite indicative. That reveals the purpose 
of his arrest, to keep him out of this election for various reasons, 
because he is, as I said, stands for republicanism, stands for Euro-
Atlantic integration. He was capable to raise the hope of the new 
generation of voters. In fact, one of the few positive changes that 
goes on in Azerbaijan is a generational change, is an unstoppable and 
uncontrollable.
    So Ilgar Mammadov is dedicated, is devoted to his ideals, and he's 
strong enough and he is--he has a will to stand in this election as a 
candidate. And we as a group of his supporters and members of the 
organization he's presiding over, will pursue with the nomination we 
have announced earlier, January, February this year.
    What if he's not registered, as I assume, that was the second part 
of the question or--well, ideally, we have two options, either to have 
another candidate from our organization, or to support someone else 
from the opposition. Obviously, we're not going to support the 
incumbent party's candidate. But is far too early to elaborate on that.
    We continue with Ilgar Mammadov. He's our candidate. We will do our 
best to try to get registered. With the registration, the entire 
situation is rather confusing. It's not just about Ilham Aliyev himself 
is not eligible to stand in election this year because the 
constitution--you all know perhaps that the constitution was amended 
and that limitation about for one person to be no more than two times 
president in a row is now lifted. But that amendment was made after 
Ilham Aliyev became president for the second time. Ilham Aliyev made a 
constitutional promise to the people, he swore on the constitution. He 
took an oath. And at that time, the constitution did contain that 
limitation. So now Aliyev made a constitutional promise to the people 
that he will not run--as a candidate--not become a president for more 
than two times in a row.
    So that amendment, if we stay within the logic of the law, which 
forbids the retroactive application of amendments, is applicable. 
Something from 2013, we still in principle disagree with that amendment 
because we think that no more two times is the moral established 
practice. But if that amendment is going to be applied, it should not 
apply to Ilham Aliyev himself. And of course, given the brutal 
situation at hand, if Ilham Aliyev is registered, then, of course, it 
would be fair to register Rustam Ibragimbekov as well because, 
regardless of some other legal obstacles he may have.
    Ms. Han. OK. Thank you.
    Mr. Seyidov. Thank you very much. Thank you very much for giving me 
the floor. That's, you know, a very familiar picture. When facts which, 
in front of us, try to present absolutely in different way, in not so 
understandable way. This is the constitution of Azerbaijan, my dear 
friends. Article 100 and I think you are familiar with the constitution 
of Azerbaijan. I want to read the Article 100. Any citizen of the 
Republic of Azerbaijan not younger than 35 years of age, who has 
resided permanently on the territory of Republic of Azerbaijan, no 
longer than 10 years--et cetera--previously committed a serious crime--
has no obligation to other states, has higher education, who has no 
dual citizenship may be elected president of the Republic of 
Azerbaijan.
    We all knows that for at present, Mr. Ibragimbekov has his Russian 
citizenship. He, today, is not able to be registered as a candidate for 
the presidency. This is the constitution of Azerbaijan.
    That's a very strange situation when my oppositional friends 
talking about legal steps and democratic elections and they started 
from violation of the constitution, the fundamental law of my country.
    The same situation with my friend Mr. Gadirli. Mr. Gadirli, this is 
your interpretation. I can bring a lot of lawyers who can bring you 
absolutely different interpretation of the constitution of Azerbaijan, 
but these amendments has been amended by the majority of Azerbaijani 
population. My president has his right to be elected for the third 
term.
    That's why, please, my dear friends, the problem of Azerbaijani 
opposition is not speak about the concrete steps, the concrete items 
from the constitution and to think how can they avoid the law which 
already adopted by Azerbaijani nation. We, as a leading party, we will 
do our best to organize the election in a free and fair manner, 
according to the constitution of Azerbaijan. Thank you.
    Ms. Han. OK. I think that Mr. Namazov wants to address the--
hopefully, you'll address the citizenship issue. And then I really do 
want to go to the audience.
    Mr. Namazov. Well, it's apparent that the passport Rustam 
Ibragimbekov had from Soviet times, that's a Soviet passport, which was 
transferred--became a Russian citizenship passport, he has--he didn't 
deny this fact, so he admits that he has a Russian passport. He's 
submitted his recusal or refusal of his Russian citizenship to Russian 
authorities. And according to Russian procedures--procedures in Russia, 
within a matter of few weeks, maximum a month, the Russian government 
has to make a decision on that--a positive decision on that request.
    For me it's very strange that Mr. Samad Seyidov, the chairman of 
the governmental committee--International Relations Committee, does not 
want to see this. He has write about this in the media. There's just 
the discussion about this, and is presenting this situation in a 
different way. I try to find a soft way to say it, but I think 
basically it's a lie.
    Mr. Seyidov. I think this is a constitution. This is not my words.
    Ms. Han. OK. Yeah. Now, I'm going to go to the audience now, and--
but first of all, I see there's a lot of interest and because of that 
interest, I'm going to set some ground rules for your participation. 
The first ground rule is that there's no statements. It has to be a 
question, direct question--please, sit down, just one second please--
OK, a direct question and I'm going to time you. You get one minute to 
ask your question. Then I'm going to ring this bell, OK? And then, that 
will be the end of your question and we'll move to answer it. What 
we're going to do is we'll take two or three questions, and then we'll 
have the panelists respond, OK?
    OK, first of all, I want to ask, are there any journalists that are 
in the room because I would like to call on a journalist first?
    Questioner. My name is Ilhan. I represent AZ, AZ news agency of 
Azerbaijan. My question would be to Eldar Namazov. Rustam Ibragimbekov 
is great person, valuable, well-known in Azerbaijan as merely the 
person of art, scenarist, and so on. But it's known fact that he has 
this dual citizenship and it's also known that he's been out of 
Azerbaijan for very long time. At the same time, National Council is 
uniting force of opposition. What I'm wondering about is why not to 
find a candidate which lives in Azerbaijan, which has single 
citizenship, and which can represent the whole country, and knows the 
issues of the country, has been living with the people? So why to set 
it up for failure basically?
    Ms. Han. OK. I'm sorry, but I am going to take two or three 
questions, and then we'll--OK--no, please, if you'll wait for the 
microphone and identify yourself, thank you.
    Questioner. Ramis Yunus. I'm former chief of staff of government. 
I'm former chief of staff of parliament of Azerbaijan.
    You talk and my question Samad Seyidov. Mr. Seyidov, you're talking 
about constitution. According to international human right organization 
such as Amnesty International, Freedom House, Human Rights Watch, and 
regarding political prisons in Azerbaijan, political prisons--situation 
in political prisons in Azerbaijan, can you tell us for everybody how 
number--how many political prisoners today in Azerbaijan, number?
    Ms. Han. OK, I'm going to take one more from this gentleman in the 
second row, if you wait for the mic please.
    Questioner. Hi. My name is Yusuf Azerbaijan State Telegraph Agency. 
My question is to the representative on the State Department, Mr. 
Melia. Since as you saw opposition usually refers to human rights 
groups such as, for instance, Freedom House, I wanted to mention that 
if you look at the report for 2013 Freedom in the World, Freedom House 
identifies Azerbaijan as not free, while identifying Armenia and even 
Nagorno-Karabakh, occupied Nagorno-Karabakh as partly free. My question 
is that--I'm not even going to talk about Armenia, where people are 
massacred even post-election, during post-election protests in 2008, 
but if you look--my question's about Nagorno-Karabakh: How can a U.S. 
government funded agency go into an internationally recognized 
Azerbaijani territory under occupation, conduct a survey, and then 
declare it as--as partly free? Isn't it an invitation for other 
countries to follow the suit, invade another country, occupy a large 
chunk of territory, and then, you know, remove the 600,000 natives from 
that land, and then open a few news agencies and, you know, declare 
it--invite the Freedom House and such organizations----
    Ms. Han. OK. I think we got it. Thank you. Thank you. OK, so we've 
got three questions on the table. Mr. Melia, would you like to start 
first, since we just had that question, and then we'll turn over to 
you.
    Mr. Melia. Freedom in the World is not funded by the U.S. 
government. It's funded by private donations to Freedom House. Some 
other publications that Freedom House does, like Nations in Transit, do 
get some assistance from the U.S. government. And what we give them a 
grant to do is to provide their own honest, independent assessment of 
the state of political rights and civil liberties in countries around 
the world. We don't exercise any editorial control over the way they 
write the reports or the judgments they come to, the conclusions they 
come to. So I'll redirect you to the editors and managers of Freedom 
House to discuss their methodology.
    Ms. Han. Mr. Seyidov.
    Mr. Seyidov. Thank you for your questions. When we became a member 
of the Council of Europe, in front of me appeared the list of so-called 
political prisoners which consist 716 person. We released all, and then 
after one month, one month, some agents from Azerbaijan presented to 
the Council of Europe another list of 500 political prisoners.
    We as a very young member of the Council of Europe released them 
all. And then, after two weeks, appeared new list of political 
prisoners with 400 or approximately 500 again. That's why, from this 
point of view, Mr. Ramis Yunus, we do not have political prisons. We 
have our obligations in front of the European Court of Human Rights and 
any person who convicted in Azerbaijan who made any kind of crimes can 
appeal to the European Court of Human Rights.
    I want to give you some very interesting fact. European Court of 
Human Rights made some decisions concerning Azerbaijan, and all these 
decisions have been implemented by Azerbaijani government. Despite of 
the fact that some European countries, including very, very famous and 
very influential, so-called old democracies, even today are not ready 
to implement the decision of the European Court of Human Rights.
    That's why when we are talking about so-called political prisoners 
which used as a pressure to Azerbaijani policy, that's another story. 
When we can see that some problematic issues had happened in 
Azerbaijan, we're ready to investigate by ourselves. And we did it for 
a long period of time. Together with representative of NGOs in 
Azerbaijan, we had created special group in order to find solution of 
these kind of arrests and this kind of attitudes. And what had 
happened? Some international organizations appointed very famous just 
now person, Mr. Strasser, as a rapporteur on political prisoners in 
Azerbaijan and send us message, you are working in Azerbaijan by 
yourself. That's not so fair. Some supervisor from the Council of 
Europe should monitor you.
    That's why, again, we are ready to do our best for human rights, 
but we don't want to see human rights as a tool in order to push to 
Azerbaijan to achieve some goals which some international organization 
has concerning Azerbaijan.
    Thank you.
    Mr. Namazov. Rustam Ibragimbekov is citizen of Azerbaijan Republic 
constantly living in the territory of Azerbaijan Republic, is a 
chairman of the Cinematographers Union, is a chairman of Forum of 
Intelligentsia of Azerbaijan. He's a founder and the chairman of Ibrus 
Theater, a drama theater Azerbaijan. Each year, he attends tens of 
events in Azerbaijan. And it's unfair to say that he's living outside 
of Azerbaijan.
    When we were selecting, voting for Rustam Ibragimbekov, there were 
87 members of National Council in the hall, and out of 87 members, 86 
voted for him and only one abstained, which shows that we made the 
right decision in selecting him as unified single candidate.
    Ms. Han. OK, thank you. We're going to take three more questions, 
and that will draw our briefing to a close. So I'm going to call on 
you, in the second row right there. If you could wait--in the pink 
shirt--I'm sorry, purple shirt--whatever color that is. Mr. Mollazade, 
did you--OK, and then Mr. Mollazade. OK. Thank you.
    Questioner. OK. Good afternoon. I'm Professor Brenda Shaffer at 
Georgetown University and my question I would like to offer to Mr. 
Melia and to Dr. Carter. In this Cold War period, the Soviet Union and 
the United States pursued a strategic competition between them through 
arming different movements, the different national movements in the 
Third World, different ideological movements, different religious 
movements. We saw the results of this. It brought societies apart. It 
created civil wars. It killed millions of people and destabilized 
countries, and in the end, it even hurt the security of the United 
States.
    In the post-Soviet period, we see that the countries have actually 
learned a new cheaper model and actually probably more efficient, which 
is instead of arming different movements around the world, we're seeing 
the strategic competitions taking place in the ballot box and in the 
street and through protests. So we see, for instance, in the post-Arab 
Spring Middle East it's not just about the people's will, but it's also 
the will of Russia, the will of Iran, the will of foreign powers.
    We see in the Caucasus in the past couple of years that not only is 
U.S. aid active there, but Russia's version of aid, Iran's version of 
aid. And even the list of political prisoners that Dr. Lanskoy 
discussed, many of them are there because they're representatives of 
the Iranian government, funded by the Iranian government, being used 
for terrorist activities, and not just religious believers.
    So I'd like to know what is the U.S. policy on helping states find 
a balance between true democratic processes or misuse of the democratic 
processes for the promotion of external forces. Again, in the Middle 
East, but also specifically we're seeing this focus in the South 
Caucasus, in Georgia, a Russian citizen elected for prime minister; in 
Azerbaijan, a Russian citizen, a candidate--how to allow this not to be 
an arena of external competition?
    Ms. Han. And then, well, if you could like to add two--ask their 
questions--
    Questioner. Hello, my name is Rafiq from University of Delaware. I 
have a really simply question to Azerbaijani official policymakers. I 
wonder whether there will be any changes regarding the settlement, the 
resolution of Nagorno-Karabakh conflict between Azerbaijan and Armenia 
after the presidential election. Do you expect any major changes, any 
changes in your counterparts? Thank you very much.
    Ms. Han. And then, right here in the front row.
    Questioner. Thank you. Thank you very much. Thank for your 
commission for a very important hearing.
    Ms. Han. Could you identify yourself?
    Questioner. My question to representative of U.S. government--my 
name is Asim Mollazade. I'm chairman of Democratic Reform Party of 
Azerbaijan. My question is to Mr. Melia. Mr. Putin said that one of the 
biggest tragedy of 20th century was collapse of Soviet Union. Now, 
after idea of Eurasian Union, we have the active involvement of Russia 
to political process of post-Soviet world elections in Latvia, 
elections in Georgia, a lot of Russian citizens were elected there. As 
a result, we had arrest of prime minister of Georgia, Ivane 
Merabishvili, and the silence in the world about this fact when people 
from Rose Revolution in jail. And also situations continue in 
Azerbaijan, and Madam Shaffer said about the Hezbollah-type of 
organization going to kill U.S. ambassador, Israel ambassador, leaders 
of Jewish Azerbaijani community.
    These people are in list of political prisoners, so called 
discussing. I mean, can anybody accept Hezbollah activity or Russian 
network activity financing in former Soviet territory? Is it a lack of 
U.S. interest to this situation? What do you think about the 
restoration of Soviet Union by Putin?
    Ms. Han. I'll give you a moment to think about that. So let's start 
with--Paul, did you want to comment first on the professor from 
Georgetown?
    Mr. Carter. Two versions of the same question actually.
    Ms. Han. OK. Are you--OK, would you like to start. OK. Yeah, and 
I'll give you--I'll call on you, yes.
    Mr. Melia. Yeah, I was going to say that the two questions are 
intertwined, the discussion about nationality and politics and external 
influences in neighboring states and so on.
    In my time in the U.S. government, which is brief but illuminating, 
I have come to appreciate the limits of American and other governments' 
ability to influence outcomes in other countries. And it reminds me of 
a fundamental premise that I had learned working in the NGO world over 
the previous 25 years, which is that the outcomes in foreign political 
process will be determined by the people in those countries, and that 
there will be--whether they move forward or backwards, whether they 
have conflict or they have, you know, reconciliation, those are largely 
decisions that will be taken by the people of each country. And 
Azerbaijan, in this sense, is no different than any of the other 
countries.
    We as international actors play a supporting role. We can encourage 
what we think are good decisions. We can try to discourage bad 
decisions. We can demonstrate that we support the work of certain kinds 
of actors like civil groups or journalist or government agencies. You 
know, we work a lot with government agencies and we try to improve 
their capacity to do their business better.
    But we can't make them do their work better. We can't make them 
more professional or more democratic or more transparent. That's not a 
function of the assistance we provide. That's a function of decisions 
that are taken by other people who live in other countries.
    Now, I know there are other actors out there that are perhaps a tad 
more malevolent than the United States generally is. But again, I would 
not overstate the degree of international influence in these political 
processes. I think the Russian role in Georgia has been vastly 
overstated by some. I think, again, it's Georgians driving decisions in 
Georgia and I think that that would be the case in Azerbaijan. It would 
be the people and officials and the voters in Azerbaijan that will 
ultimately decide the future of the country. But Dr. Carter is much 
more of an expert on the nationalities of the former Soviet Union than 
I am. So he can explain what's really going on.
    Mr. Carter. Thank you very much, Tom. I guess my observation on 
this would be that actually echoing what Tom had to say about the 
influence of bigger powers on other countries. I mean, certainly 
history shows that sooner or later it's the domestic situations in 
these countries that win out. And you know, sometimes these big powers 
can influence developments even for long periods of time, but then 
eventually, it's the situations within the countries that prevail.
    The United States, in many countries--we can't want democracy more 
than the people of the countries with which we have a relationship. Our 
assistance overseas, history and the record of our assistance shows 
that--that where the people really want this, we can help them, but 
where the people are not ready yet or have other ideas, things don't 
work out.
    We think that given the developments in Azerbaijan that things seem 
to be going in a--at least popular opinion wants democracy. We believe 
that. And we certainly would like to do everything we can to support 
that. And that's one of the reasons that we had this hearing today, to 
try to give a little bit of a support to that effort.
    Ms. Han. OK. I'm going to turn next to the Ambassador and Mr. 
Seyidov, are you going to address the Nagorno-Karabakh?
    Mr. Seyidov. Yes.
    Ms. Han. OK. And then what I'm going to do is I'll allow Mr.--
everyone to have one to two minutes to sort of wrap up their--any final 
comments you'd like to make.
    Mr. Seyidov.
    Mr. Seyidov. Thank you very much, again. That's a very, very 
essential question because today, Nagorno-Karabakh issue is the 
question which we should discuss everywhere. And today, the pressure 
which we can see to Azerbaijan because of our independent policy. We 
did our best to be an independent and we're doing our best to be an 
independent, but unfortunately not only we are able to see our 
possibilities and our influence in the region, and that's why I think 
Karabakh issue is the key point to show who is a master in the region.
    Azerbaijan is in favor to find a solution, peaceful solution of 
Nagorno-Karabakh issue and then several times mentioned that 
unfortunately we faced with three Armenia, not with one. The one 
Armenia is just nation which are living in a neighboring country. Poor 
people, they are isolated because of the policy which provided by the 
government Armenia. But the second Armenia living here, in United 
States of America, in Los Angeles, that's a Diaspora, rich, 
influential, standing there and maybe here and try to influence to 
these briefings. And the third Armenia is existing, Armenia as a tool 
in the hands of the big power to show he's a master in South Caucasian 
region.
    You said, my dear colleagues, that, you know, nation is responsible 
for future and for democracy. Of course nation is responsible, but why 
we have seen the same deja vu in Georgia, Russian citizen coming and 
taking part in election; in Azerbaijan, Russian citizen is coming and 
taking part, negotiations between Armenia and Azerbaijan deadlock. 
United States of America is in favor to change status quo, but even you 
are not able to change the situation.
    That's why, despite of all this pressure, despite of all these 
obstacles, the leadership of Azerbaijan is doing its best for finding 
the solution of Nagorno-Karabakh--peaceful solution of Nagorno-
Karabakh. Because we have a lot of things to lose. We want to keep our 
future. We want to do our best for our country. Thank you very much.
    Ms. Han. Mr. Namazov.
    Mr. Namazov. We observe today that pre-election situation in 
Azerbaijan has already started, that there're steps taken towards 
already with clear outcome towards the elections. Government is trying 
to present National Council here in Washington as Russia's project. But 
other member of Azeri government, like the chairman of president staff, 
Mr. Ramsmetiev he travels to Moscow or Tehran, where he says that 
National Council is a project of the West. And if they--the National 
Council wins this election, Azerbaijan will be more integrated to 
Europe, to West, to NATO. So as you see, that there's in the same 
amount of time two different presentations of the National Council.
    But I want to assure you that the decision of what will be the next 
government will be decided not in Moscow, Tehran, or Washington, but by 
the will of Azerbaijani people and they will be determined by voting in 
October and then defending their laws to make the change.
    Ms. Han. Mr. Ambassador, if you could spend two minutes wrapping 
up.
    Mr. Suleymanov. Yes. Thank you very much once again. And let me 
raise one question right away. As someone who grew up in the Soviet 
Union, I am quite used to the Soviet propaganda casually using words 
like racism and I know it is irrelevant to the United States. So I grew 
up living in an imperialist racist society here. If you look at the 
propaganda efforts today against the United States, you would often see 
the same thing.
    I'm very saddened at what I heard here casual use of words 
``false,'' ``planted,'' ``smearing.'' So for instance, when it is 
someone in Azerbaijan, when it's written against somebody who you like, 
it's a smearing campaign. If it's written about somebody in the 
government, it's freedom of speech and can never be stopped.
    So we need to be a little bit more grown up about this and 
basically think about things which are realistic. I mean, I spent five 
and a half years as consul general in Los Angeles. We saw yesterday 
what happened in Los Angeles between police force and protesters. Now, 
what should we--should we have a briefing at the parliament of 
Azerbaijan and somebody coming and mentoring Ambassador Morningstar? 
He's not a young man. I don't want him to suffer like that. So let us 
get a little bit realistic here.
    Another thing is, for instance and be a little bit careful in 
casual using words. I mean, those words actually matter. And if we want 
them to matter, then let's use them more carefully.
    Another thing which surprised me here is that we have spent 
discussing a potential candidacy of Mr. Ibragimbekov, who's a well-
known actor, but what are we discussing? It's a superficial--I'm not as 
familiar as Mr. Namazov is with the Russian decision-making process. So 
I don't know exactly what the Russians decide or what they don't 
decide. I don't know. I don't know Russians that well.
    But at the moment, the fact is obvious: Mr. Ibragimbekov has a 
Russian passport. He said he wants to get rid of it. If he gets rid of 
it by time and he's eligible to be registered, he will be registered by 
law. If he's not eligible, he will not be eligible. So discussion of 
this but--and using this discussion in order to attack the government 
when the fact stands is actually kind of--just--I mean, it's kind of 
strange, to be honest.
    The other thing that I wanted to say is first of all, Mr. Gadirli, 
I thank you for bringing up the words of Mr. Wilson, President Wilson. 
I think every Azerbaijani in this room and beyond, we all share the 
aspiration of Mr. Topchubashev, Fatali Khan Khoyski, and everybody else 
who built Azerbaijan's republic. Every day, I can tell you that my 
mission here defends the flag of the Republic of Azerbaijan because we 
believe in the spirit of that flag.
    Now, Mr. Gadirli, you know how much I respect you, but you also 
know that the republic you referred to lived 23 months and no, Mr. 
Melia, it did not fall because of domestic dissidents, it fell because 
of the obvious foreign invasion. So please, while in a continent--the 
great continent of North America surrounded oceans, it seems that 
foreign intervention is a very remote possibility. In my country, it's 
not the same.
    Mr. Gadirli, I share your aspiration for democratic and independent 
Azerbaijan. We do everything possible to make sure that happens. Let us 
work together. Let us work together to make sure that the spirit which 
instilled in that republic remains forever. Azerbaijan must be 
independent. And let me tell you something. As much as you might 
disagree with the government of Azerbaijan, it is because of the 
leadership of Haydar Alyiev and Ilham Alyiev, the Republic of 
Azerbaijan stands at the most independent, most sovereign, and in most 
progressive republic of the former Soviet Union. So in fact, when you 
blow down the words of Mr. Wilson, you know what we're trying to do is 
to solidify that spirit.
    Now, I will just make a very small reference to what you said. I 
know that you basically believe in parliamentary system, and you're 
entitled to your view. Based on that you offer a very narrow 
interpretation of a referendum and a constitution. I disagree with your 
view on that. I think that majority view in Azerbaijan is obvious and 
majority view around the world supports the idea that amendment into 
constitution enters into force for the moment it's adopted. So I think 
there's no legal preclusion for the incumbent president to be elected.
    Ms. Han. I'm sorry, but we're going to lose our room and I 
apologize to cut you off. Mr. Melia if you could start, then we'll go 
to Dr. Lanskoy and then Mr. Gadirli, you'll have the last word. Oh, I'm 
sorry, and Paul.
    Mr. Melia. I'll just conclude where we began by saying that 
Azerbaijan is an important partner of the United States. It is our 
policy that we want them to succeed as a sovereign, secure, and 
prosperous country based on the shared democratic aspirations that we 
have all committed to in joining the OSCE and the Council of Europe. 
And everything we do and say is intended to contribute to the 
consolidation of Azerbaijan's success as an independent nation.
    I think in the context of these 90 days or so until the 
presidential election comes, there are a handful of things that the 
government of Azerbaijan could do tomorrow that would advance the 
democratic process. We talked about the need to release Ilgar Mammadov. 
I think it's entirely within the power of the government to register 
the EMDS as a domestic election monitoring organization, to invite 
ODIHR, the OSCE ODIHR to send their observers short- and long-term. To 
permit ordinary political activity--let people come and go, have their 
meetings, make their speeches, and get their messages out, and let the 
people decide whether to vote for one candidate or the other.
    We in the United States don't have any preferences for candidates 
of parties. We focus on a process and the more transparent and fair the 
process is, the more confident we are that Azerbaijan will move 
forward.
    Ms. Han. Dr. Lanskoy.
    Ms. Lanskoy. Thank you. Let me say a couple of things. First, on 
the whole question of kind of what do we look for in the election 
period, one of the sort of basic issues is whether there's an 
acceptance that there can be an opposition, and not just saying--not 
just automatically painting the opposition as a projection of bad 
foreign influence.
    We see a lot of authoritarian governments that do that, that say 
the opposition is not authentic. The opposition is somehow influenced 
by others. We see this right now in Russia, where Putin is basically 
saying this is--you know--those NGOs, they're foreign agents and 
members of the opposition met with the Georgian parliamentarian this is 
not an authentic opposition. It's a shame to see some of that happening 
in Azerbaijan.
    Ilgar Mammadov is well-known to us. He's not an agent of Russia. 
He's not an agent of Iran. He's certainly a political prisoner. It is a 
shame to hear that type of argument being used against people who are 
totally pro-Western. The time that I've spent watching Azerbaijan 
actually predates those back to when I was at the EU and I was 
following Azerbaijan closely and publishing on it all the time. And you 
could see how over these 20 years Azerbaijan has gone in the wrong 
direction. It used to be roughly on parity with Georgia when it came to 
things like NATO expansion. Azerbaijan and Georgia in the mid-'90s were 
about in the same place as they--Azerbaijan was saying we really want 
to be in NATO and was looking for a path in that direction.
    Now, there's such a big difference. If you look at, again, 
referring to Freedom House surveys, and those are based on extensive 
research, Azerbaijan's scores are getting closer to Uzbekistan. It's 
not getting closer to Georgia or closer to Europe. It's getting closer 
to the Central Asians, and that's very unfortunate.
    It's already been said. Azerbaijan has a very vibrant civil 
society. And on that, I do agree with the representatives of the 
government. There's really a great civil society. It is a very diverse 
country. And there's no place that's more ready for democratic 
government and I wish all the Azerbaijanis the best in the elections.
    Ms. Han. Mr. Gadirli.
    Mr. Gadirli. Thank you. I deliberately started my speech with a 
quote from former President Wilson. He didn't say that he agreed or 
disagreed with Azerbaijani delegation. The only thing he said that he 
noticed that they were speaking the same language. Now, this is very 
important. It's important because it reveals the fact how people 
conceptualize the world, how they envision the future of their country, 
how they understand their own existence, what mental map they have in 
their own hand in the end.
    So we have a very bright ambassador here in the U.S. It's not that 
I'm paying the tribute to what he has just said to me----
    Mr. Suleymanov. It looks that way.
    Mr. Gadirli. There're bright people in the government, employed by 
the government, who speak various languages, who built a personal 
career and have self-esteem. That goes without saying. It's not that we 
don't see that. The problem is and what I try to explain here is how 
government communicates to its own people internally.
    I have no illusion about foreign aid, especially in a democracy 
building. And we're not here to complain or ask for something. But the 
language the government uses to communicate to its own people is 
extremely outdated, extremely outdated. The concepts they use, the 
terminologies they employ, the phraseology they use actually. I mean, 
one of the MPs whom I personally respect, is not a member of incumbent 
party, but he's a bright lawyer himself, recently, relatively recently 
said to the media that Ilgar Mammadov, I quote, ``is a last and 
unsuccessful attempt by the West to have a color revolution in 
Azerbaijan.'' End of quote.
    I'm not getting into the fact statement of whether he's true or 
not, but the language is quite indicative.
    Now, we hear here and there in Azerbaijan, someone is Russian 
agent. Someone is Iranian agent. Someone is Western agent. I'm really 
fed up with this. We have to pay attention to the conduct, to the 
process. We have to ensure that ideas become part of the process and 
people are valued because of the things they say.
    There's another thing that is overlooked, what is called 
intellectual dependence. That's very different thing from the thing 
that agency of change. If I studied, for example, German philosophy, 
which greatly influenced myself, I can fairly enough say that I am 
intellectually dependent on German philosophy. I didn't study Chinese 
philosophy. I'm not intellectually dependent on what the greatest 
Chinese civilization produced.
    But the worldview I have is a Western. But now, what we see is the 
government, again, communicating to its own people. I know that they 
say a lot of nice and sometimes true things to the West. But the way 
they communicate to its own people is very outdated and very Russian-
like, not in terms that the Russians instructs them, but in terms of 
the system, the similarity in the system, the similarity in the 
problems.
    Look what the Russia--how Russia treats its NGO and how Azerbaijani 
government treats the NGO. The same talks: agents, agents, agents, 
foreign aid, grants, blah, blah. How Russia treats its parties, its 
political parties and the political process, how Azerbaijani government 
treats its political parties and process, and et cetera, et cetera, et 
cetera.
    Now, Professor Brenda Shaffer mentioned about the task upon the 
Iranian influence, et cetera. This is another truth, by the way. A 
growing Islam, for example. Yes, Islam grows in Azerbaijan, but partly 
because it was oppressed during Soviet time. Now, it simply is reaching 
its traditional level. I think it will catch some 30-35 percent of the 
society. Yes, it's visible because the number of voters increased who 
have some religious aspirations and for any politician, including the 
incumbent party--and they do so, which is fair enough and it's 
legitimate to--in public people's campaign--we have to address the 
needs of the believers. That says, yes, Islam has become politically--
political factor. But not in the sense that Islam is becoming a 
political factor in a way that any Islamic group can grab the power.
    They have significant and very deep disagreements among themselves. 
They have different intellectual dependencies. Some depend on Iran. 
Some depend on Turkey. Some depend on Arab. There's no way they can 
come to any agreement among themselves.
    Let's stop these speculations and manipulations about Islam, about 
Russia, about Iran without--with due account to the real geostrategical 
threats. I agree with you, Mr. Ambassador, they are threats. They are 
threats. They're existential threats. And they're not going to go 
anywhere if the government changes. And we do share that concern. Also 
about Karabakh. I don't know if there're Armenians here, no matter from 
which part of the world they're from. But I also want our American 
friends to know this. It's not just about Azerbaijan and Armenia.
    We have to have a clear picture. The end of the '80s and the 
beginning of '90s were two different trends. Armenians wanted Karabakh 
at any price. Azerbaijanis wanted independence at any price. When you 
want something at any price, you pay the highest price possible. What 
we have, Azerbaijan got its independence, but lost a control over the 
Karabakh and surrounding area. Armenia got control over Karabakh and 
surrounding areas, but lost its independence.
    I want to understand everyone here in this room, occupation is the 
price Azerbaijan pays for its independence.
    Mr. Gadirli. I want you to know that the reason I'm standing in 
opposition about that is just the fact that we don't talk to each other 
in our country--no, not you and myself. But is no talk in Azerbaijan. I 
know that I can access you. And in fact, unlike Americans here, I have 
a luxury to ignore your diplomatic status because for me you're first 
of all my fellow compatriot. But because we don't have a talk, there is 
no process. No one can misuse it or use it if there is no process.
    Ms. Han. All right. Thank you. I'm going to call on Dr. Carter to 
provide some concluding remarks and then we'll wrap it up.
    Mr. Carter. OK. We've heard testimony from a distinguished group of 
American and Azerbaijan officials, politicians, and experts. They've 
offered diverse perspectives on the current political situation in 
Azerbaijan and the prospects for a free and fair presidential election 
this fall. We are grateful to each for agreeing to appear at this 
briefing today.
    I began my introductory remarks earlier by noting that the United 
States is a friend of Azerbaijan and the Azerbaijani people and that we 
have many common interests with the government in Baku. These strong 
ties have have been an important factor in our close cooperation over 
the years and we would like to see our relationship become even 
stronger. As we have heard today, Azerbaijan is indeed at a crossroads. 
One path leads forward toward democracy and economic prosperity. The 
other leads toward authoritarianism, corruption, and eventually, 
economic stagnation and decline.
    The presidential election this fall will be an important 
opportunity for Azerbaijan to act on this choice. All candidates must 
be allowed to move and campaign freely without fear of arrest or 
harassment. Journalists must be free to cover and report on the 
election and other stories without the threat of detention on trumped 
up charges, physical assault, or the jamming of broadcasts.
    NGOs, religious organizations, and other elements of civil society 
must be allowed to operate without arbitrary bureaucratic or legal 
impediments. And all of Azerbaijani society must be able to trust that 
it is governed in a transparent and rule-based manner in the interests 
of all and not in the interests of a small group.
    These are obligations that Azerbaijan has undertaken as a member of 
the United Nations, the OSCE, and other international organizations. It 
has--excuse me--it is our sincere hope that Azerbaijan will see this 
opportunity, guarantee these basic democratic and human rights, and 
take its rightful place as a regional cornerstone of democracy, social 
peace, and prosperity.
    Thank you again to all of our panelists and to all of you who have 
attended this briefing today.
    Ms. Han. Thank you very much.

                                   [all]
                                    

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
